No. 20-536

0

IN THE

uprente Court of tie zanitebi Otateo
THE EPISCOPAL CHURCH, ET AL.,
Petitioners,
v.

THE EPISCOPAL DIOCESE OF FORT WORTH, ET AL.,
Respondents.

On Petition for a Writ of Certiorari to the
Supreme Court of Texas

REPLY BRIEF IN SUPPORT OF CERTIORARI

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the document contains
2,995 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).
I declare under penalty of perjury that the foregoing is true and correct.

Executed on January 6, 2021.

Colin Casey
gan
Wilson-Epes Printing Co., Inc.

